September 27, 2011

TO:             Federal Co-Chairman
                ARC Executive Director

FROM:           Hubert Sparks
                ARC Inspector General

SUBJECT:        Inspection Report No. 11-09, Report on ARC’s J-1 Visa
                 Waiver Program in Alabama


Attached is our inspection report on J-1 Visa Waivers provided physicians in the State of Alabama. We
found the program well received with high rates of utilization.




Hubert Sparks
Inspector General




cc: C. Howard


Attachment
 Office of Inspector General




      Inspection Report
ARC’s J-1 Visa Waiver Program
          In Alabama




    September 27, 2011




        Report 11-09
Background
ARC adopted a J-1 Visa Waiver program under the U.S. Department of State (DOS) guidelines.
The guidelines allow a hospital or other entity acceptable to the DOS to sponsor a foreign
physician, and then for a governmental entity to submit a request for a 3 year Visa waiver on
behalf of the physician. ARC’s utilizes its member state governmental apparatus’ to gather
information and documentation from prospective J-1 Visa physicians. Upon ARC approval of a
J-1 Visa request from the state, ARC submits a request to DOS. Upon DOS approval, ARC has
responsibility for oversight of its program requirements, compliance, and reporting to DOS.

ARC policies require that the physicians provide primary medical care 40 hours a week in a
“Health Professional Shortage Area” (a term defined by the US Public Health Service) of
Appalachia as designated by ARC. In addition, ARC has requirements of physicians to help low
income patients and other policies requiring the acceptance of health insurance, such as
Medicare.


Purpose, Scope and Results
We visited the offices of three physicians granted J-1 Visa Waivers through ARC’s program. The
purpose of the visit was to assess program results and compliance with established rules. The
offices of three physicians visited were in North Central Alabama; visits of the offices took place
during the month of August 2011 and our work was conducted in accordance with the Quality
Standards for Inspection and Evaluation, issued by Council of Inspectors General on Integrity
and Efficiency in January 2011.

One physician worked in a family medical center that appeared to have a high degree of patient
utilization. She expressed satisfaction with the program, her job, employer, and her interactions
with patients. The office hours and requirements related to low income patients and insurances
were being met.

Another physician we visited ran a psychiatric ward at a local hospital and also saw patients on
an outpatient basis. Apparently, in the area of Psychiatry in this part of Alabama, there is a
shortage of skilled physicians and ARC did well with this placement. The office hours and
requirements related to low income patients and insurances were met, as described by the
doctor.

The third physician visited specialized in pediatrics, and was on a seven week maternity leave
that was soon to end. Her patients were being seen by another physician. Apparently the office
is open the requisite number of hours.
We noted an inconsistency between ARC program language and that of Alabama involving the
requirements to provide primary medical care. ARC policy states, “… The physician
must agree to provide primary medical care... “, while Alabama’s documents require the
employer to provide, “Assurance that primary care or mental health physicians will provide…
primary care or mental health care…” and indeed one physician is a mental health care
provider. Clarification of the language to reflect actual practice eligibility is recommended.
Overall, the J-1 Visa Waiver program in Alabama appears well received and utilized in the
communities being served.
